           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 PERFORMANCE MEASURE REVIEW:
   RELIABILITY OF THE DATA USED
TO MEASURE THE TIMELY PROCESSING
  OF DISABILITY INSURANCE CLAIMS

  October 2001      A-02-99-11001




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                        ~ SBC&
                                                       OV~~
                                                       W/'US~~
                                                       \A     !111111
                                                                   ~~
                                                            "'VlSTV

                                         SOCIAL              SECURITY

                                          Office of the Inspector General
MEMORANDUM
Date:   October- 2,=2001                                                                 Refer To:

        Larry Go Massanari
To:     Acting Commissioner
         of Social Security

        Inspector General


        Performance Measure Review: Reliability of the Data Used to Measure the Timely
        Processing of Disability Insurance Claims (A-02-99-11 001 )


        The Government Performance and Results Act (GPRA) of 19931 requires the Social
        Security Administration (SSA) to develop performance indicators that assess the
        relevant service levels and outcomes of each program activity. GPRA also calls for a
        description of the means employed to verify and validate the measured values used to
        report on program performance. The objective of this audit was to assess the reliability
        of SSA's data used to measure the following Fiscal Year (FY) 1999 GPRA performance
        indicator:

                                                                        FY     1999        FY 1999
                        Performance      Indicator                      Goal               Actual

        Percent of Disability Insurance (Dl) claims
        decided within 6 months after onset or within
        60 days after effective filing date, whichever
        is late~                                                        53     Percent     49.2      Percent




        BACKGROUND

        The SSA oversees two long-term disability programs. The Dl program was established
        in 1954 under title II of the Social Security Act. The program is designed to provide
        benefits to wage earners and their families in the event the wage earner becomes
        disabled. The Supplemental Security Income (SSI) program was created as a result of
        the Social Security Amendments of 1972. SSI (title XVI of the Act) provides income to
        financially needy individuals who are aged, blind and/or disabled.




        1 Public Law No.103-62.
        2 This measure does not appear as a performance indicator in the FY 2000 Annual Performance Plan
        Beginning in FY 2000, SSA reclassified the indicator as a strategic objective.
To determine disability eligibility, a claimant must first file a disability claim with SSA.
Personnel in one of SSA’s approximately 1,300 field offices (FO) conduct the initial
interview with disability applicants and assist them in completing the application.
Applications for DI are prepared and input into the Modernized Claims System (MCS).
Initial interviews are conducted to determine the applicant’s non-medical eligibility based
on work history and to gather evidence needed to determine medical eligibility. At the
time of filing, the interviewer tries to determine the date of onset (when the disability
began) and if the claimant is performing substantial gainful activity (SGA). If the
claimant is working and earning over the SGA limit, the interviewer may deny benefits
without sending the case to the State Disability Determinations Service (DDS) office.

Disability determinations under both DI and SSI are performed by DDSs in each State
according to Federal regulations. In carrying out its obligation, each DDS is responsible
for determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. The DDS makes a disability determination after all
necessary information is obtained and notifies the FO. A letter is sent informing the
claimant of the determination (allowance or denial) and of his/her appeal rights.

DDS personnel input the determinations into MCS, which is an automated system. A
small percentage of the monthly DI workload, 5 to 6 percent, is input into either the
Manual Adjustment, Credit and Award Processing (MADCAP) or the Manual
Adjustment, Credit and Award Data Entry (MACADE) systems, which are mostly
manual systems. The Social Security Administration Claims Control System (SSACCS)
is used to track non-MCS-processed case records for pending and completed title II
claims filed with SSA. The Management Information Initial Claims Record (MIICR)
reads claims processing information from both SSACCS and MCS (see Appendix C for
a complete flowchart of the title II DI processing performance measure). The MIICR
then writes data for the completed claim into the MIICR Master File, which creates a file
of completed claims for weekly and monthly runs. A Service Delivery Objective (SDO)
143 report is generated from the MIICR Master File, which contains a monthly summary
of processing time data. The SDO 14 report is provided to the Office of Strategic
Management (OSM). OSM extracts monthly MIICR data, which is then summarized to
create statistics for inclusion in SSA’s annual Accountability Report.

RESULTS OF REVIEW

The data used to measure the percent of initial DI claims processed within 6 months
after the disability began or within 60 days after effective filing date, whichever is later,
was found to be reliable. However, we found that internal controls over date fields in
MCS, SSACCS, MADCAP/MACADE and MIICR systems are needed to ensure future
data reliability. SSA also lacks sufficient documentation of the process used to
accumulate and generate the DI processing time statistic. In addition, we determined
that SSA’s Office of Information Management (OIM) did not write its software used to
3
  Service Delivery Objective (SDO) reports provide performance information for three of the supporting
SDO’s under the general goal “Pay Benefits When Due,” as explained in SSA’s Strategic Plan. SDO 14
reports on the performance indicator for the timely processing of initial Title II DI claims.


                                                   2
measure the timely processing of disability claims in accordance with the Agency’s
software standards and guidelines.

THE PERFORMANCE MEASURE DATA FOR TIMELY PROCESSING
OF INITIAL SSA DISABILITY CLAIMS IS RELIABLE

Our review disclosed that the reported performance of 49.2 percent was a reliable
                                  measurement of performance. This conclusion was
 PERFORMANCE MEASURE based on a replication of the monthly statistics from
 DATA IS RELIABLE                 the MIICR data for November and December 1999
                                  and February 2000. We performed a parallel
simulation of the performance measure using the criteria in effect at the time of our
review. There were no differences between SSA’s reported statistics for the 3 months
reviewed and our calculation of performance.

The results of our replication compared to SSA’s reported calculations are as follows:

       Figure 1. Percent of DI Claims Decided Within 6 Months After Onset or
           Within 60 Days After Effective Filing Date, Whichever Is Later

MONTH                                         PER SSA                             PER OIG

November 1999                                   49.2 %                             49.2 %

December 1999                                   46.1 %                             46.1 %

February 2000                                   46.6 %                             46.6 %

Due to the unavailability of data for the entire FY 19994, we were only able to test the
above 3 months. Since the process was the same for the entire period of our review,
there was no indication that data from other months in FY 1999 would have yielded
different results.

INCORRECT DATES FROM DI CASES ARE ACCEPTED BY MIICR

Our review of SSA’s monthly files containing data on the processing of initial DI claims
indicates that the MIICR is accepting future dates or other apparently incorrect dates
                                 from MCS, SSACCS, and MADCAP/ MACADE. For
  MIICR WILL ACCEPT              MCS cases, the incorrect dates are input into the MCS
  FUTURE DATES                   system and accepted by MIICR. Other inaccurate
                                 dates from either excluded or non-MCS cases are
posted to the SSACCS record that is also used by MIICR. This incorrect data from
MCS and SSACCS is used by MIICR in its monthly reports regarding the percent of
4
  SSA only retains the data for a 3-month timeframe from any given date. The data prior to the 3-month
timeframe is overwritten.


                                                   3
timely cases. This lack of controls over date fields in MCS excluded or non-MCS cases
places the reliability of the data into question.

We analyzed 3 months of MIICR data consisting of 284,974 cases covering the period
November and December 1999 and February 2000. We found a total of six records
with a date of filing recorded as 2019, and three records with dates in the date of onset
field of 2012, 2013, and 2015. While this small number of cases is immaterial to the
calculation of percent of timely cases, these errors provide evidence that MIICR, the
system that generates the statistical information, will accept future dates, which casts
doubt on some of the data transferred to MIICR from MCS excluded or non-MCS-
processed cases.

We also found 36 records with a latest clear date before the record establishment date.
These occurrences are also immaterial to the monthly data being generated. We were
informed that these cases were input errors made at the time of initial application and
were processed through either MADCAP or MACADE. These occurrences highlight the
lack of internal controls over dates transferred to the SSACCS record for excluded and
non-MCS cases and then captured by MIICR.

INTERNATIONAL DISABILITY CASES NOT INCLUDED IN THE INDICATOR

SSA did not include the international DI claims processed during FY 1999 in the
statistics reported in its FY 1999 Annual Accountability Report. In our review of the
monthly FO Initial Disability Claims Reports (Processing Times) for FY 1999, SSA
reported that 1,203,567 initial DI claims were processed. The SDO 14 reports indicated
                             that 1,201,729 claims were processed, which is a difference
 1,838 CLAIMS NOT            of 1,838 claims, or less than 1 percent of the total claims.
 INCLUDED IN                 Because the statistic for the percent of DI claims processed
 INDICATOR                   timely is taken from the SDO 14 report, these claims are not
                             included in this statistic. If these claims were included in the
GPRA indicator the revised statistic would represent a difference of plus or minus
0.1 percent and would be immaterial to the overall percent of claims processed timely.
However, as these are completed initial DI claims, SSA should have included them
when reporting the percent of DI claims processed timely.

PERFORMANCE MEASURE DOCUMENTATION WAS LACKING

SSA lacks sufficient performance measure documentation for the processes involved in
the generation of the initial SSA DI claims processing time statistic.

                                 SSA staff advised us that there is a lack of
SSA NOT IN COMPLIANCE            documentation of the SSA initial DI claims process
WITH OMB GUIDANCE                from start to finish. Accordingly, we verified different
                                 phases of the process through discussions with
personnel from the Office of Systems Requirements, Office of Systems Design and
Development, and OIM. We compared the information obtained in these interviews with


                                              4
the criteria stipulated in the Management Information Manual, Part II. Based on all this
information, we were able to design a flowchart of the initial DI claims process (see
Appendix C).

The Office of Management and Budget Circular No. A-123, Management Accountability
and Control states, “The documentation for transactions, management controls, and
other significant events must be clear and readily available for examination.” Further,
GPRA requires agencies to “…describe the means to be used to verify and validate
measured values…” (31 U.S.C. 1115(a)(6)). A significant lack of documentation does
not provide the audit trail necessary for the verification of the performance measures.

SOFTWARE MODULES ARE NOT IN COMPLIANCE WITH POLICIES AND
PROCEDURES

OIM develops software programs to determine whether disability claims are processed
                                       timely. In reviewing three of these programs, we
 SOFTWARE PROGRAMS ARE                 found that OIM did not develop software in
  INEFFICIENT, DIFFICULT TO            accordance with guidelines included in Social
 ANALYZE AND MAINTAIN                  Security’s Systems Engineering Technology
                                       (SET) manual. As a result, OIM software
                                       programs are inefficient and difficult to analyze
and maintain. There is a risk that the programs could continue processing incorrect
data without being detected. We found that OIM programmers:

·   Repeat program instructions unnecessarily;
·   Use different names for the same files in the same program;
·   Do not check file status when reading and writing records to files;
·   Do not use standard program termination routines; and
·   Use, in the same program, two different methods for performing a discrete set of
    software instructions.

The software programs we analyzed are for computer applications that OIM uses to
produce management information. The programs are stored in a program library on a
mainframe computer that Social Security uses for software development. The programs
are written in the COBOL programming language and maintained by OIM.

In the programs we reviewed, we found that OIM programmers do not always instruct
the computer to return to, and execute, the same set of software instructions. Often,
they have the computer execute copies of those instructions at different locations in the
program, a practice not in compliance with SET standards. By duplicating software
instructions rather than have the computer simply re-use the original, programmers
increase the risk that inconsistencies could occur in developing and maintaining
software. More frequently, programmers re-write and modify separate but identical
software instructions, increasing the chance that differences will occur between the
separate versions. Even if no differences develop, creating and modifying software is



                                            5
more expensive because repeat instructions have to be written or modified more than
once.

Also, in each of the programs we reviewed, OIM programmers use different names for
the same file. Programmers do this in referring to file description and defining the
external name of the file. By not using the same name for a file whenever it appears,
programmers make the task of writing and maintaining the software more difficult.

OIM programmers do not always check file status when reading and writing records to
files, or use standard program termination routines to help identify why a program ends
abnormally. These oversights increase the risk that OIM programs will continue
processing despite errors and process incorrect data undetected. The absence of
standard program termination routines also makes it harder and more time consuming
to determine the cause of and correct an abnormal program end.

Finally, OIM programmers use, in the same program, two different methods for
performing a set of software instructions, a practice not supported by SET guidelines.
This practice makes program maintenance more complex and increases the risk of
programming errors such as unintentionally bypassing or executing instructions.

CONCLUSIONS AND RECOMMENDATIONS
The data used to measure the percent of initial DI claims decided within 6 months after
onset or within 60 days after effective filing date, whichever is later, was found to be
reliable. We did find, however, weaknesses in SSA’s internal controls over date fields in
the MCS, SSACCS, MADCAP/MACADE and MIICR systems, which could cause an
inaccuracy in the reported performance measure. We also found that there was a lack
of an audit trail documenting the DI process from start to finish. Additionally, SSA’s OIM
did not always conform to agencywide software policies and procedures. These
conditions need to be corrected so complete reliance can be placed on the reported
performance measure in the future.

Accordingly, we recommend SSA take the following corrective measures to improve the
process used to measure the initial SSA DI claims processing time performance:

1. Establish controls in the MCS, SSACCS, MADCAP/MACADE and MIICR systems
   over date fields to limit data entry and processing errors;

2. Either include international DI claims in the measure or fully disclose in SSA’s
   Annual Performance and Accountability Report the number of international DI claims
   excluded;




                                            6
3. Provide an adequate audit trail to document the processes involved in the
   generation and accumulation of the performance measure; and

4       Ens-ure~cOIM's programming   practices   comply with SSA's SET standards


AGENCY           COMMENTS

SSA agreed with all four of our recommendations. In response to Recommendation 1 ,
SSA agreed that MCS, SSACCS, MADCAP/MACADE and MIICR systems should be
programmed not to allow future year dates. By the end of December 2001, SSA will
provide the Office of the Inspector General (GIG) with a detailed response of their
findings and begin modifying the system to prevent future dates from being input as
current dates. Regarding Recommendation 2, SSA agreed the Annual Performance
and Accountability Report should disclose the number of international Dl claims, which
are excluded. For recommendation 3, SSA will address the issue of establishing an
appropriate audit trail for this performance measure as it transitions MIICR functionality
to the title II Workload Management Information Management System. Finally, SSA
agreed that all software would be documented and developed according to SSA
standards.

OIG's        RESPONSE



We are pleased that SSA agrees with our recommendations and we look forward to
receiving an implementation plan detailing the steps the Agency will take to improve the
performance measure relating to the processing of initial disability claims.



                                                         J~~~                      "

                                                          James   G.   Huse,~




                                                    7
                                       Appendices
APPENDIX A - Scope and Methodology

APPENDIX B - Acronyms

APPENDIX C - Flowchart of Title II Disability Processing Performance Measure

APPENDIX D - Agency’s Comments

APPENDIX E - OIG Contacts and Staff Acknowledgments
                                                                                          Appendix A

Scope and Methodology
This audit was conducted to assess the reliability of Social Security Administration's (SSA's)
performance data used to measure the timely processing of Disability Insurance (DI) claims.
The measure reports the percent of DI claims decided within 6 months after onset or within
60 days after effective filing date, whichever is later. This review is part of a series of audits
regarding the measurement of the disability process. One report has already been issued1 and
another review concerning both the title II (DI claims) and title XVI (Supplemental Security
Income) process is nearing the end of the field work phase2.

To test the accuracy and reliability of SSA's performance data, we:

    ·   obtained three monthly data base files for the periods November 1999, December 1999
        and February 2000 for the title II DI claims which are contained in the Management
        Information Initial Claims Records (MIICR) system;

    ·   validated a sample of 100 MIICR Service Delivery Objective (SDO) 143 DI records for
        December 1999 to the Modernized Claims System (MCS), comparing dates in key data
        fields in MIICR to the dates maintained in MCS;

    ·   validated a sample of 100 MIICR non-SDO 14 DI records for December 1999 to MCS,
        comparing the records to ensure correct classification and appropriate exclusion from the
        SDO;

    ·   checked that the 3 months of records contained valid entry codes and dates;

    ·   compared key dates in MIICR to check for appropriateness for each record reviewed (i.e.
        date of filing, record establishment date, application receipt date, and date of onset) were
        prior to clearance date;

    ·   performed a COBOL program systems language translation of MIICR comparing the data
        to procedures shown in SSA’s Management Information Manual;
    ·   compared and reconciled the number of monthly SDO 14 cases reviewed to the numbers
        reported by SSA in their monthly SDO 14 reports. For the 3-month period under review,
        the number of initial disability claims processed were as follows:


1
  “Performance Measure Review: Reliability of the Data Used to Measure the Timeliness of Processing
Supplemental Security Income Disability Claims,” (A-02-99-11002), December 2000.
2
  “Performance Measure Review: Reliability of the Data Used to Measure Disability Claims Processing,”
(A-02-00-10017).
3
  SDO reports provide performance information for three of the supporting SDO’s under the general goal “Pay
Benefits When Due,” as explained in SSA’s Strategic Plan. SDO 14 reports on the performance indicator for the
timely processing of initial title II DI claims.


                                                      A-1
              November, 1999                                   90,279
              December, 1999                                  102,611
              February, 2000                                   92,084

   ·   reconciled the number of DI claims reported on the 12 monthly SDO 14 reports to the
       amount reported on SSA’s FY 1999 Annual Accountability Report;

   ·   reconciled the number of DI claims processed on the 12 monthly field office Initial
       Disability Claims Reports (Processing Times) to the numbers reported on the monthly
       SDO 14 reports;

   ·   recalculated the number of timely cases for each of the 3 months reviewed and
       compared the results to SSA’s monthly SDO 14 reports;

   ·   where appropriate, discussed our results with Office of Information Management (OIM)
       personnel and obtained clarification of discrepancies occurring in specific DI cases.

In conducting this audit, we also:

   ·   reviewed SSA's Annual Accountability Reports for FYs 1997, 1998, and 1999, SSA's
       Annual Performance Plans for FYs 1999 and 2000, and SSA's revised Final Performance
       Plan for FY 2000 to determine the baseline data, definition, and data source for the
       performance indicator;

   ·   reviewed pertinent Government Performance and Results Act and Office of Management
       and Budget laws and regulations;

   ·   interviewed Office of Strategic Management policy and program staff to document the
       methodologies and procedures used to produce performance data for this indicator;

   ·   interviewed SSA staff from the Office of System Requirements, Office of Systems Design
       and Development and OIM to gain an understanding of the DI process from the initial
       application phase to either allowance or denial, the composition of OIM's data base, the
       statistical methods used and reports generated, and other relevant matters; and

   ·   flowcharted the entire title II DI process from initial claims taking until either allowance or
       denial (see Appendix C).

We reviewed those internal controls related to our audit objective. Our work was conducted at
the Office of the Inspector General’s New York Field Office and SSA Headquarters in
Baltimore, Maryland from July 1999 to March 2001. The entity audited was the Office of
Systems. Our audit was performed in accordance with generally accepted government auditing
standards, as applicable to a performance audit.




                                                  A-2
                                                                Appendix B

Acronyms
APP      Annual Performance Plan
DDS      Disability Determinations Service
FY       Fiscal Year
GPRA     Government Performance and Results Act
MACADE   Manual Adjustment, Credit and Award Data Entry
MADCAP   Manual Adjustment, Credit and Award Processing
MCS      Modernized Claims System
MIICR    Management Information Initial Claims Records
OIG      Office of the Inspector General
OIM      Office of Information Management
OMB      Office of Management and Budget
SDO      Service Delivery Objective
SEF      Software Engineering Facility
SET      Systems Engineering Technology
SSA      Social Security Administration
SSACCS   Social Security Administration Claims Control System




                                                                       -
                                              Appendix C

Flowchart of Title II Disability Processing
Performance Measure
                   Claimant contacts SSA             Can a CR                    CR interviews claimant via
                    via FO visit, mail, or                                                                                      Is claimant                       Does
  START                                            interview the        Y   teleclaim or in-office appointment,                                                 claimant
                    phone call to FO or                                                                                         potentially            N
                                                      claimant               first verifying non-medical issues                                                 insist on
                            TSC                                                                                                   eligible?
                                                       today?                                                                                              Y      filing?

                                                         N

                                                Set up a teleclaim                                                                                                 N
                                                    or in-office
                                                   appointment


                                                                                                                                    Y                             STOP


                                                                                                    If possible, make
            Complete DI             Review non-medical                 Determine effective               and enter                       Is this a
          application forms                                                                                                              non-med           Y        C
                                     issues via MCS.                        filing date             non-med decision
             using MCS                                                                                   into MCS                         denial?

                                                                                                                                            N



                                                                                                                       If medical                       DDS reviews a
                                          DDS inputs receipt of case           DDS gathers & reviews
Create            Send folder to                                                                                   information is not                percentage of cases
                                         on NDDSS, which interfaces           med evidence in order to
medical               DDS                                                                                          sufficient, a CE is               through the DDS QA
                                              with SSA systems                  make a med decision
 folder                                                                                                                scheduled.                          process




            DDS makes a decision and
                                                      Has NDDSS selected
                 enters the medical                                                          DDS forwards folder
                                                      the case for Federal             Y                                       DQB and medical
             information in the NDDSS                                                         to DQB for review                                                        A
                                                            review?                                                            staff review case




                                                                   N
                                                     B




                                                                                 C-1
              Does DQB                   Classify the                                                   Return folder to DDS
                                                                        Is corrective
A             agree with           N        type of                                                    for corrective action
                                        deficiency per                 action by DDS               Y
             DDS' action?                                                 required?
                                             POMS


                                                                              N
                  Y

                                                                     DQB takes whatever
    DQB reviewer signs and dates                                   other action is needed to
             SSA-831                                                   perfect the claim



         B

                                                  Follow corrective               Per POMS,
                       Does DDS
                                                 action procedures,            does case need
                       agree with           Y                                                            N          B
                                                   per GN 4440.ff              to be returned to
                      DQB's finding?
                                                                                    DQB?


                            N
                                                                                        Y
                      Follow rebuttal
                      procedures, per
                        GN 4440.40                                                Return folder                Does DQB now
                                                                                   to DQB for                determine that DDS    Y
                                                                                      review                 took proper action?


                         Is DQB in                                                                                                     B
                      agreement with              N
                          rebuttal?                                                                                     N


                                                                                                              DQB adjudicates
                             Y
                                                                                                              or sends case to
                                                                                                                  DDS again
                         Rescind
                        deficiency




                                                             C-2
    DDS or DQB inputs
                                     Case is closed on NDDSS or DICARS                                              Did the CR input the non-med
    medical decision as                                                          Folder is sent
B                                     and a decision is transferred to SSA                                          decision prior to sending folder
     reported on form                                                             back to FO
                                                    systems                                                                    to DDS?
         SSA-831
                                                                                                                Y

                  DO receipts in
                    claim and
                                                                                                                                   N
                  verifies inputs
                   are updated.
                                                                                                                    Adjudicate non-med portion of
                                                                                                                     claim via MCS or Automated
                                                                                                                            101 (MACADE)


                                              MCS updates W MS.                                                                              MIICR writes data
                                                                                            MIICR reads info                                for completed claim
C                                              SSA-1418 (screen)                               from W MS
                  Folder is filed.                                                                                                           into MIICR Master
                                              updates SSACCS with                           and/or SSACCS
                                                   claim info.                                                                                       File


                                                                                                                                                 "MIICR EDIT"
                                                                                                                                                 creates file of
                                                                                                                                               completed claims
                                                                                                                                                  (weekly run)
                                                             "MIICR Switch"
                                                                                      "MIICR Calc"                      "MIICR Sort"
                                                          creates monthly file
                                                                                       (monthly run)                    (monthly run)
                                                          of completed claims


                                                                                                    MIICR
                                                                                                                                    Creation of
                                                                                                   Summary
                                                                                                                                   SDO 14 report
                                                               End of line
                                                              Paraselection
                                                                 Reports
                                                                                                   Processing
                                                                                                  Time Report                Report provided to OSM
                                                                                                  produced by                 for inclusion in SSA's
                                                                                                     "MIICR                   Accountability Report
                                                                                                    Summary"


                                                                                                                                        STOP



                                                                         C-3
                  Appendix D

Agency Comments
                                                     ..,\- SEC'V
                                                    ~()"-~~
                                                   ,5;'1'/A;
                                                           ~y","
                                                      'I;usA'~
                                                   ~ """1,<.~
                                                        ""1~
                                        SOCIAL         SECURITY


-MEMORANDUM


Date:   September   21, 1001                                                   ReferTo: SlJ-3

To:        J~es G. Ruse, Jr.
           Inspector General

From:      Larry G. Massanari
           Acting Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Perfonnance Measure Review: Reliability
           of the Data Used to Measure the Timely Processing of Disability Insurance Claims;'
           (A-O2-99-1l001)-INFORMATION


           We appreciate the OIG's efforts in conducting this review. Our comments on the
           recommendations are attached.

           Staff questions may be referred to Trudy Williams on extension 50380.

           Attachment:
           SSA Response
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “PERFORMANCE
MEASURE REVIEW: RELIABILITY OF THE DATA USED TO MEASURE TIMELY
PROCESSING OF DISABILITY INSURANCE CLAIMS” A-02-99-11001

We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

Recommendation 1

Establish controls in the Modernized Claims System (MCS), Social Security Administration
Claims Control System (SSACCS), Manual Adjustment, Credit and Award Processing/Manual
Adjustment, Credit and Award Data Entry (MADCAP/MACADE) and Management Information
Initial Claims Records (MIICR) systems over date fields to limit data entry and processing
errors.

SSA Comment

We agree. The MCS, SSACCS, MADCAP/MACADE and MIICR systems should be
programmed not to allow future year dates. In addition, we will request the Social Security
numbers for each case identified by the OIG to begin investigating this issue. By the end of
December 2001, we will provide the OIG with a detailed response of our findings and begin
modifying the system to prevent future dates from being input as current dates.

Recommendation 2

Either include international Disability Insurance (DI) claims in the measure or fully disclose in
SSA’s Annual Performance and Accountability Report the number of international DI claims
excluded.

SSA Comment

We agree that SSA’s Annual Performance and Accountability Report should disclose the number
of international DI claims that are excluded. We do not agree that international DI claims should
be included in the measure. The disability timeliness goal is, and has always been, a measure of
field office disability claims processing for U.S. states and territories. The process of filing a
disability claim is very different for persons who file in foreign countries and cannot be
compared to field office/Disability Determinations Service procedures. Social Security offices
do not exist in foreign countries. Applicants must have access to American embassies to conduct
business, and the embassy staffs are not SSA employees.

Recommendation 3

Provide an adequate audit trail to document the processes involved in the generation and
accumulation of the performance measure.
SSA Comment



                                                D-2
We agree and will address the issue of establishing an appropriate audit trail for this performance
measure as we transition MIICR functionality to the Title II Workload Management Information
Measurement System.

Recommendation 4

Ensure OIM’s programming practices comply with SSA’s Systems Engineering Technology
standards.

SSA Comment

We agree. The software cited in this report is part of the Agency's MIICR applications. The
Office of Information Management is currently in the process of developing a plan, under the
SSA Unified Measurement System project, for the transition of all MIICR functionality to our
Title II Workload Management Information system. All software will be documented and
developed according to SSA standards. We are in the planning and analysis stage of this work.




                                               D-3
                                                                               Appendix E
OIG Contacts and Staff Acknowledgments

OIG Contacts

   Frederick C. Nordhoff, Director
   Financial Management and Performance Monitoring Audit Division
   (410) 966-6676

   Timothy Nee, Deputy Director
   (212) 264-5295

OIG Acknowledgements
In addition to those name above:

   Stephen L. Liebman, Senior Auditor-in-Charge

   Denise Ramirez, Program Analyst

   Patrick Kennedy, Audit Manager

   Carol Ann Frost, Computer Specialist

   Annette DeRito, Program Analyst

For additional copies of this report, please visit our web site at www.ssa.gov/oig or contact the
Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375. Refer to Common
Identification Number A-02-99-11001.
                            DISTRIBUTION         SCHEDULE



                                                                             No. of
                                                                             Cogies

Commissioner of Social Security                                                 1
Management Analysis and Audit Program Support Staff, OFAM                      10

Inspector General                                                               1

Assistant Inspector General for Investigations                                  1
Assistant Inspector General for Executive Operations                            3
Assistant Inspector General for Audit                                           1
Deputy Assistant Inspector General for Audit                                    1
  Director, Systems Audit Division                                              1
  Director, Financial Management and Performance Monitoring Audit Division      1
  Director, Operational Audit Division                                          1

  Director, Disability Program Audit Division                                   1
  Director, Program Benefits Audit Division                                     1
  Director, General Management Audit Division                                   1
Issue Area Team Leaders                                                        25

Income Maintenance Branch, Office of Management and Budget                      1

Chairman, Committee on Ways and Means                                           1

Ranking Minority Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman, Subcommittee on Social Security                                       2
Ranking Minority Member, Subcommittee on Social Security                        1
Majority Staff Director, Subcommittee on Social Security                        2
Minority Staff Director, Subcommittee on Social Security                        2
Chairman, Subcommittee on Human Resources                                       1
Ranking Minority Member, Subcommittee on Human Resources                        1
Chairman, Committee on Budget, House of Representatives                         1
Ranking Minority Member, Committee on Budget, House of Representatives          1
Chairman, Committee on Government Reform and Oversight                          1
Ranking Minority Member, Committee on Government Reform and Oversight           1
Chairman, Committee on Governmental Affairs                                     1
Ranking Minority Member, Committee on Governmental Affairs                      1
Chairman, Committee on Appropriations,    House of Representatives            1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations,    U.S. Senate                         1
Ranking Minority Member, Committee on Appropriations,    U.S. Senate          1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  andTechnology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
 Incorporated                                                                 1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer


Total                                                                        97
                        Overview of the Office of the Inspector General

                                             Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the Social
Security Administration’s (SSA) programs and makes recommendations to ensure that program objectives
are achieved effectively and efficiently. Financial audits, required by the Chief Financial Officers Act of
1990, assess whether SSA’s financial statements fairly present the Agency’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of
SSA’s programs. OA also conducts short-term management and program evaluations focused on issues
of concern to SSA, Congress, and the general public. Evaluations often focus on identifying and
recommending ways to prevent and minimize program fraud and inefficiency.
                                    Office of Executive Operations
The Office of Executive Operations (OEO) provides four functions for the Office of the Inspector General
(OIG) – administrative support, strategic planning, quality assurance, and public affairs. OEO supports
the OIG components by providing information resources management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human resources.
In addition, this Office coordinates and is responsible for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government Performance and
Results Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency. This
division also conducts employee investigations within OIG. The public affairs team communicates OIG’s
planned and current activities and the results to the Commissioner and Congress, as well as other entities.
                                        Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud, waste,
abuse, and mismanagement of SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, physicians, interpreters, representative payees, third parties, and by SSA
employees in the performance of their duties. OI also conducts joint investigations with other Federal,
State, and local law enforcement agencies.
                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General on
various matters, including: 1) statutes, regulations, legislation, and policy directives governing the
administration of SSA’s programs; 2) investigative procedures and techniques; and 3) legal implications
and conclusions to be drawn from audit and investigative material produced by the OIG. The Counsel’s
office also administers the civil monetary penalty program.
